IN THE SUPREME COURT OF THE UNITED STATES
4444444444444444444444444U

CONOLY FREDDIE FRANKLIN AND ANDRE ANTHONY FRANKLIN,
AKA TOMMY MARTIN,
Petitioners,
-vUNITED STATES OF AMERICA,
Respondent.
4444444444444444444444444U

PROOF OF SERVICE
I, the undersigned, declare that:
1.
I am over eighteen (18) years of age; am a resident of the County of
San Diego, State of California; am not a party in the within action;
and my business address is 402 W. Broadway, Suite 1130, San Diego,
CA 92101.
2.
I mailed one copy of the Petition for Writ of Certiorari to the Clerk,
U.S. Supreme Court, 1 First Street, N.E., Washington, D.C. 20543.
3.
I served the above brief to counsel for Plaintiff-Appellee by mailing
two copies:
Elizabeth Prelogar, Solicitor General of the United States
Office of the Solicitor General, Room 5614
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
4.
I mailed additional copies to Andre Anthony Franklin and Conoly
Freddie Franklin III.
5.
The above were delivered and deposited in the U.S. mails, first class
postage prepaid, at San Diego, CA, on August 31, 2021.
I certify the foregoing is true and correct. Executed on August 31, 2021 in San
Diego, CA.
s/David Zugman
David Zugman

-35-

